Appendix A

Case: 20-50687

Document: 00515824251

Page: 1

Date Filed: 04/16/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

March 25, 2021

No. 20-50687

Lyle W. Cayce
Clerk

Amy Harrison,
Plaintiff—Appellant,
versus
Kevin Lilly, Individually and in His Official Capacity; Robert
Saenz, Individually and in His Official Capacity,
Defendants—Appellees.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 1:19-CV-668
Before Elrod, Willett, and Engelhardt, Circuit Judges.
Per Curiam:*
Amy Harrison sued Kevin Lilly and Robert Saenz in their individual
and official capacities under 42 U.S.C. § 1983 (“Section 1983”), alleging that
she was terminated in retaliation for exercising her First Amendment right to

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-50687

Document: 00515824251

Page: 2

Date Filed: 04/16/2021

No. 20-50687

free speech. The district court dismissed Harrison’s complaint for failure to
state a claim, and she now appeals the dismissal. We AFFIRM.
I.
Before her termination on July 12, 2017, Amy Harrison worked as
Licensing Director for the Texas Alcoholic Beverage Commission
(“TABC”). Her job duties included supervising and running the TABC
Licensing Department, which regulates the persons and entities who receive
alcoholic beverage licenses in Texas.
In May 2017, Governor Greg Abbott appointed Kevin Lilly to serve as
TABC Chairman. In preparation for his new role, Lilly attended a legally
required training on conflicts of interest. One day in June 2017, Lilly
contacted Harrison about his stock portfolio and requested her interpretation
of a conflict-of-interest provision in the Texas Government Code. Harrison
told Lilly that providing legal advice was beyond the scope of her position and
recommended that he consult an attorney. Later that day, Lilly sent an email
containing a list of his personal stock holdings to Harrison and TABC
General Counsel Emily Helm.
Harrison compared Lilly’s stock holdings to a list of companies
licensed by TABC, discovered an overlap between the two, and concluded
that Lilly had a possible conflict of interest in violation of Texas law. Harrison
emailed her findings to TABC Executive Director Ed Swedberg, her direct
supervisor. Harrison also emailed her findings to Helm, who was not a
member of Harrison’s official workplace chain of command. Harrison
additionally discussed her findings with Lilly directly. After reviewing the
information provided by Harrison, Helm emailed Lilly an outline of the
reasons why his stock holdings might violate Texas law.
On June 30, Harrison learned that TABC might be planning to fire
her. Harrison met with Swedberg, who informed her that she could work

2

Case: 20-50687

Document: 00515824251

Page: 3

Date Filed: 04/16/2021

No. 20-50687

through August 2017 and then retire. Harrison told Swedberg she had not
planned on retiring at that time. On July 6, Swedberg and TABC Chief of
Field Operations Robert Saenz held a conference call with Harrison. Saenz
stated that if Swedberg did not fire Harrison, then Saenz would take
Swedberg’s position and fire her himself. On July 7, Harrison informed
Swedberg that she would not be retiring. Unwilling to fire Harrison,
Swedberg resigned on July 10. On July 11, Lilly named Saenz TABC Acting
Executive Director. On July 12, Harrison was summoned to a meeting with
Saenz and TABC Human Resources Director Donald Rupp. At this meeting,
Harrison reiterated her findings about Lilly’s possible conflict of interest.
Saenz and Rupp then fired Harrison, explaining that Lilly “wanted to go in a
different direction.”
Harrison brought a claim for First Amendment retaliation pursuant to
Section 1983 against Lilly and Saenz (collectively “Defendants”) in their
individual and official capacities. She alleged that Defendants terminated her
in retaliation for communicating her conclusions regarding Lilly’s potential
legal violation. Defendants filed a Rule 12(b)(6) motion to dismiss, arguing
that Harrison failed to state a First Amendment retaliation claim. In the
alternative, Defendants argued that they were entitled to qualified immunity
for their actions in terminating Harrison. Without reaching the qualified
immunity issue, the district court granted Defendants’ motion, concluding
that Harrison failed to state a First Amendment cause of action. Specifically,
the district court found that Harrison alleged that her communications about
Lilly’s potential legal violation were made as an employee—not as a citizen—
thus disqualifying her speech from First Amendment protection under
Garcetti v. Ceballos, 547 U.S. 410 (2006). This appeal followed.

3

Case: 20-50687

Document: 00515824251

Page: 4

Date Filed: 04/16/2021

No. 20-50687

II.
We review de novo a district court’s order granting a Rule 12(b)(6)
motion to dismiss. IberiaBank Corp. v. Ill. Union Ins. Co., 953 F.3d 339, 345
(5th Cir. 2020). All well-pleaded factual allegations are accepted as true and
viewed in the light most favorable to the plaintiff. Alexander v. Verizon
Wireless Servs., L.L.C., 875 F.3d 243, 249 (5th Cir. 2017) (citation omitted).
III.
Harrison argues that the district court erred in finding that her
complaint failed to allege the citizen speech required to state a First
Amendment cause of action under Garcetti. She contends that she has pled
citizen speech based on allegations that her communications regarding Lilly’s
potential legal violation had no relation to her official duties as Licensing
Director and were made to Helm—a TABC employee outside her workplace
chain of command.
To establish a Section 1983 claim for employment retaliation related
to speech, a public employee must allege that “(1) he suffered an adverse
employment action; (2) he spoke as a citizen on a matter of public concern;
(3) his interest in the speech outweighs the government’s interest in the
efficient provision of public services; and (4) the speech precipitated the
adverse employment action.” Anderson v. Valdez, 845 F.3d 580, 590 (5th Cir.
2016) (citation omitted). As the district court found in the present case,
failure to allege the second prong is fatal to a First Amendment retaliation
claim, because an employee who does not speak “as a citizen on a matter of
public concern . . . has no First Amendment cause of action based on his or
her employer’s reaction to the speech.” Garcetti, 547 U.S. at 418.
As a threshold inquiry, we must determine whether the employee
spoke as a private citizen or pursuant to her public job before asking whether
the subject matter of the speech is a topic of public concern. Davis v.

4

Case: 20-50687

Document: 00515824251

Page: 5

Date Filed: 04/16/2021

No. 20-50687

McKinney, 518 F.3d 304, 312 (5th Cir. 2008); see also Charles v. Grief, 522
F.3d 508, 512 (5th Cir. 2008) (“Before proceeding to examine the substance
of [the employee’s] speech, we must first focus on his role when he uttered
it.”).
“[W]hen public employees make statements pursuant to their official
duties, the employees are not speaking as citizens for First Amendment
purposes, and the Constitution does not insulate their communications from
employer discipline.” Garcetti, 547 U.S. at 421. “Official duties” are tasks
that employees are required to perform as part of their job responsibilities.
Id. at 421–22. Because the employee in Garcetti did not dispute that his
speech was required under his official duties, the Supreme Court declined
“to articulate a comprehensive framework for defining the scope of an
employee’s duties in cases where there is room for serious debate.” Id. at
424. It further noted that the following factors, while relevant, are not
dispositive in determining whether a public employee’s speech is within the
scope of his official duties: whether a certain task is listed in a formal job
description, whether the speech concerns the subject matter of employment,
and whether the speech occurs inside the office. Id. at 420–21, 424–25.
Picking up where Garcetti left off, we have found unprotected
employee speech in situations where the speech at issue is not explicitly
required under the employee’s official duties but nonetheless is related to
those duties. We held that a school athletic director who submitted internal
memoranda to his principal accusing the school of athletic budget
mismanagement engaged in unprotected employee speech, because his
speech focused on his “daily operations,” reflected “special knowledge”
gleaned from his position, and was “part-and-parcel of his concerns” in
running the school’s athletic department. Williams v. Dall. Indep. Sch. Dist.,
480 F.3d 689, 690–91, 694 (5th Cir. 2007). We also found that a university
audit manager who submitted an internal complaint to her superiors accusing

5

Case: 20-50687

Document: 00515824251

Page: 6

Date Filed: 04/16/2021

No. 20-50687

the university of mishandling an audit investigation engaged in unprotected
employee speech, because her statements related to her “core job
description” and were “directed within [her] chain of command.” Davis, 518
F.3d at 315.
On the other hand, we held that the Davis audit manager engaged in
protected citizen speech by filing complaints with the EEOC and FBI alleging
employment discrimination at the university and discovery of possible child
pornography on university computers, because communicating with external
law enforcement authorities or agencies was unrelated to her official duties.
Id. at 316 (conditioning this holding to a finding on remand that the speech
raised matters of public concern). We also found that a systems analyst for
the Texas Lottery Commission engaged in citizen speech when he emailed
complaints about employment discrimination in his workplace to Texas
legislators, because his communications were “not even indirectly related to
his job” and he bypassed his “normal chain of command” by communicating
externally to elected representatives rather than internally to his supervisors.
Charles, 522 F.3d at 514. Additionally, we have held that a university art
director engaged in protected citizen speech by expressing his political views
to a congressman’s staff member, because he “spoke about concerns entirely
unrelated to his job and from a perspective that did not depend on his job . . .
but rather emanated from his views as a citizen.” Cutler v. Stephen F. Austin
State Univ., 767 F.3d 462, 473 (5th Cir. 2014).
Accepting all of Harrison’s allegations as true, a Licensing Director
had no “official duty” to provide legal advice or report a co-worker’s
suspected legal violations. Cf. Garcetti, 547 U.S. at 421–22. However,
Harrison alleged that she only reached her conclusions about Lilly’s potential
legal violation after receiving Lilly’s list of stock holdings in a workplace
email, applying her licensing knowledge to compare TABC licensees to
companies in which Lilly held stock, and identifying TABC licensees that

6

Case: 20-50687

Document: 00515824251

Page: 7

Date Filed: 04/16/2021

No. 20-50687

overlapped with those companies—all tasks related to her “core job
description” and “daily operations” of running the Licensing Department
and regulating TABC licensees. Davis, 518 F.3d at 315; Williams, 480 F.3d at
694. Indeed, Harrison’s briefing does not dispute that a Licensing Director’s
official duties include informing others of the identities of TABC licensees.
Because the performance of her official duties formed the very basis for her
communications about Lilly’s potential legal violation, her speech was “partand-parcel” of her concerns as Licensing Director. Williams, 480 F.3d at 694.
Further, Harrison’s communications did not “emanate[] from [her] views as
a citizen,” but rather originated from her perspective as Licensing Director,
because she would not have noticed the overlap giving rise to her legal
concerns without her licensing expertise and workplace access to a list of
Lilly’s stock holdings. Cf. Cutler, 767 F.3d at 473.
Harrison’s communications were further premised on “special
knowledge” gleaned from her position. Williams, 480 F.3d at 694. Harrison’s
allegations indicate that she knew the companies in which Lilly held stock,
knew which companies held TABC licenses, and knew there was a legally
suspicious overlap between the two precisely because she was Licensing
Director. Even assuming that the identities of TABC-licensed companies are
publicly available, the same cannot be said of Lilly’s stock holdings, which
were listed in a workplace email that Harrison received in her employee
capacity.
Finally, Harrison’s complaint alleges that her communications to
Helm were made outside her workplace chain of command. In the First
Amendment retaliation context, we have found citizen speech in situations
where an employee speaks outside her chain of command; however, these
cases involved employees who communicated with persons or agencies
outside the workplace on topics unrelated to their official duties. Davis, 518
F.3d at 316; Charles, 522 F.3d at 514; Howell v. Town of Ball, 827 F.3d 515,

7

Case: 20-50687

Document: 00515824251

Page: 8

Date Filed: 04/16/2021

No. 20-50687

524 (5th Cir. 2016) (police officer’s communications with FBI regarding
investigation into fraud scheme perpetrated by city employees). Harrison’s
case is distinguishable from Davis, Charles, and Howell because Helm was
Harrison’s fellow TABC employee—not an external party—and Harrison’s
communications to Helm were related to her official duties as Licensing
Director.
Moreover, Harrison’s factual allegations indicate that Helm was
within Harrison’s workplace chain of command at the time of the events
giving rise to her retaliation claim. Harrison alleged that after Lilly learned
that Harrison was not qualified to provide legal advice on conflicts of interest,
he copied Harrison and Helm on an email listing his personal stock holdings.
As stated above, Harrison does not dispute that informing others of who
holds a TABC license is within the scope of a Licensing Director’s official
duties. As a practical matter, Helm could not perform legal analysis of Lilly’s
potential conflicts of interest without first knowing which TABC licensees,
if any, overlapped with Lilly’s stock holdings. Indeed, Harrison alleged that
after she provided Helm with information on the overlapping entities, Helm
legally reviewed this information and emailed Lilly an outline of the reasons
why his stock holdings might violate Texas law. Thus, the complaint shows
that Lilly placed Harrison within Helm’s chain of command—at least for
purposes of responding to his stock-portfolio email—so that Harrison could
contribute her licensing expertise and streamline Helm’s legal analysis.
For the foregoing reasons, Harrison’s complaint alleged that her
communications regarding Lilly’s potential legal violation related to her
official duties as Licensing Director, reflected special knowledge gleaned
from her position, and were made up the chain of command. Accordingly, we
find that Harrison’s complaint alleges that she spoke as Licensing Director—
not as a citizen. Harrison’s failure to allege citizen speech is fatal to her First
Amendment cause of action. Garcetti, 547 U.S. at 418. Thus, the district

8

Case: 20-50687

Document: 00515824251

Page: 9

Date Filed: 04/16/2021

No. 20-50687

court did not err in dismissing Harrison’s case for failure to state a claim
under Rule 12(b)(6). 1
IV.
For the foregoing reasons, we AFFIRM the district court’s grant of
Defendants’ Rule 12(b)(6) motion to dismiss.

1

Because Harrison failed to allege facts to satisfy Garcetti’s threshold inquiry that
she be speaking as a citizen, we need not address whether she alleged speech on a matter of
public concern. See Davis, 518 F.3d at 312; see also Charles, 522 F.3d at 512. In addition,
based on Harrison’s failure to state a First Amendment retaliation claim, we need not
address Defendants’ qualified immunity defense.

9

Case: 20-50687

Document: 00515824252

Page: 1

Date Filed: 04/16/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

___________

FILED
March 25, 2021

No. 20-50687
___________

Lyle W. Cayce
Clerk

Amy Harrison,
Plaintiff—Appellant,
versus
Kevin Lilly, Individually and in His Official Capacity;
Robert Saenz, Individually and in His Official
Capacity,
Defendants—Appellees.
____________________________
Appeal from the United States District Court
for the Western District of Texas
USDC No. 1:19-CV-668
____________________________
Before Elrod, Willett, and Engelhardt, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and was argued by
counsel.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

Case: 20-50687

Document: 00515824252

Page: 2

Date Filed: 04/16/2021

No. 20-50687

IT IS FURTHER ORDERED that plaintiff-appellant pay to
defendants-appellees the costs on appeal to be taxed by the Clerk of this
Court.

2

Case: 20-50687

Document: 00515824258

Page: 1

Date Filed: 04/16/2021

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

April 16, 2021

Ms. Jeannette Clack
Western District of Texas, Austin
United States District Court
501 W. 5th Street
Austin, TX 78701-0000
No. 20-50687

Harrison v. Lilly
USDC No. 1:19-CV-668

Dear Ms. Clack,
Enclosed is a copy of the judgment issued as the mandate and a
copy of the court’s opinion.

Sincerely,
LYLE W. CAYCE, Clerk
By: _________________________
Melissa B. Courseault, Deputy Clerk
504-310-7701
cc:

Mr.
Mr.
Mr.
Mr.

Christopher Beau Carter
Evan Scott Greene
Drew L. Harris
John F. Melton

Appendix B

Case 1:19-cv-00668-RP Document 23 Filed 07/23/20 Page 1 of 12

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
AMY HARRISON,
v.

§
§
§
§
§
§
§
§
§
§

Plaintiff,

KEVIN LILLY, individually and in his official
capacity, and ROBERT SAENZ, individually
and in his official capacity,
Defendants.

1-19-CV-668-RP

ORDER
Before the Court is Defendants Kevin Lilly (“Lilly”) and Robert Saenz’s (“Saenz”;
together, “Defendants”) motion to dismiss Plaintiff Amy Harrison’s (“Harrison”) first amended
complaint, (Mot. Dismiss, Dkt. 15); Harrison’s response in opposition, (Resp., Dkt. 16); and
Defendants’ reply, (Dkt. 17). After considering the parties’ arguments, the record, and the
relevant law, the Court grants Defendants’ motion to dismiss.
I. BACKGROUND
This is a First Amendment retaliation case. Harrison contends Defendants fired her for
sending an email containing speech protected by the First Amendment. (Am. Compl., Dkt. 13, at
6). In support, Harrison alleges the following background facts.
Harrison worked for the Texas Alcoholic Beverage Commission (“TABC”) from 1990
until her termination on July 12, 2017. (Id. at 2). At the time of her termination, Harrison served
as the Director of Licensing. (Id.).
After Texas Governor Greg Abbott appointed Lilly to serve as Commissioner and
Chairman of the TABC in May 2017, Lilly attended a TABC-required training, which included
information regarding conflicts of interest. (Id. at 2–3). After attending the training, Lilly
contacted Harrison about his stock portfolio and how the term “reasonable” should be
interpreted under the conflict-of-interest provision in the Texas Government Code. (Id. at 3).

1
20-50687.110

Case 1:19-cv-00668-RP Document 23 Filed 07/23/20 Page 2 of 12

Harrison replied that “advising him on conflicts of interest and statutory code interpretation . . .
was beyond the scope of her role as licensing director.” (Id.). She advised Lilly to seek advice
from an attorney.
Later that day, Lilly emailed a list of his personal stock holdings to Harrison and the
TABC’s general counsel, Emily Helm (“Helm”). (Id.). When Harrison received Lilly’s email, she
“compared the list sent by [Lilly] to entities licensed by the TABC, discovered that there was an
overlap between the two and concluded that at least in her nonlegal opinion [Lilly’s]
stockholdings could potentially constitute violations of the Texas Alcoholic Beverage Code, the
Texas Government Code, and the Texas Penal Code.” (Id.). After determining that a conflict of
interest might exist, Harrison “felt that she had a civic duty” to notify Helm and her boss, TABC
executive director, Ed Swedberg (“Swedberg”) regarding her concerns. (Id.). She also discussed
the possibility of a conflict of interest with Lilly directly. (Id. at 3–4). Harrison alleges that her
superiors did not ask her to perform a conflict check, and that “such conflict checks and analyses
were never part of her job duties.” (Id. at 3). She further alleges that her communications with
Helm “were made outside of her chain of command.” (Id. at 4).
After reviewing the information provided by Harrison, Helm emailed Lilly “outlining the
reasons why his personal stock holdings might constitute violations of the statutes.” (Id. at 3).
Less than a month later, Lilly told Helm that TABC was “going in a new direction.” (Id. at 4).
Lilly gave Helm the opportunity to resign, but informed her that if she refused, he would initiate
an open TABC meeting to discuss her future employment. (Id.). Helm resigned. (Id.).
That same day, Harrison learned that TABC also planned to terminate her. (Id.). In a
meeting with Swedberg, Harrison asked about her future employment status, and Swedberg told
her “not to worry about it and to enjoy the upcoming Fourth of July weekend.” (Id.). When
Harrison returned from the holiday weekend, Swedberg informed her that she “could work

2
20-50687.111

Case 1:19-cv-00668-RP Document 23 Filed 07/23/20 Page 3 of 12

through the end of August and then retire.” (Id.). Harrison told Swedberg she had not planned
on retiring at that time. (Id.).
The following day, Saenz told Harrison that she “needed to ask [Swedberg] to terminate
her because [Swedberg’s] principles were preventing him from doing so on his own.” (Id.). Saenz
also explained that Swedberg’s principles would soon serve no barrier to her termination. (Id.) If
Swedberg failed to terminate Harrison, Saenz said he would take Swedberg’s position as
executive director and terminate her himself because “principles don’t pay [the] bills.” (Id.).
Two days later, Harrison told Swedberg she was not going to retire because she “wanted
to continue in her position and because she had done nothing to warrant termination.” (Id. at 5).
Unwilling to terminate Harrison, Swedberg resigned. (Id.).
As promised, Saenz replaced Swedberg as acting executive director of the TABC. (Id.).
Saenz summoned Harrison to a meeting the very next day. (Id.). At the meeting, Harrison again
expressed concerns about Lilly’s possible conflicts of interest. (Id.). Saenz then informed
Harrison that Lilly “wanted to go in a different direction,” and fired her. (Id.).
Harrison now brings a claim for First Amendment retaliation pursuant to 28 U.S.C.
§ 1983 against Lilly and Saenz in their individual capacities and in their official capacities as
TABC Chairman and TABC Acting Executive Director, respectively. (Id. at 1). Specifically,
Harrison alleges Defendants violated the First Amendment by terminating her for notifying
Helm and Swedberg about Lilly’s possible conflicts of interest. (Id. at 6). She seeks damages
against Lilly and Saenz in their individual capacities and, in the alternative, injunctive relief
against Lilly and Saenz in their official capacities in the form of reinstatement and a “prospective
injunction barring further retaliation by Defendants for individuals exercising their First

3
20-50687.112

Case 1:19-cv-00668-RP Document 23 Filed 07/23/20 Page 4 of 12

Amendment rights.” (Id. at 7–8). Defendants move to dismiss Harrison’s complaint for failure to
state a claim and on the basis of qualified immunity. (Mot. Dismiss, Dkt. 15, at 4, 8).
II. LEGAL STANDARD
Under Federal Rule of Civil Procedure 12(b)(6), a court may dismiss a complaint for
“failure to state a claim upon which relief can be granted.” In deciding a Rule 12(b)(6) motion, a
“court accepts ‘all well-pleaded facts as true, viewing them in the light most favorable to the
plaintiff.’” In re Katrina Canal Breaches Litig., 495 F.3d 191, 205 (5th Cir. 2007) (quoting Martin K.
Eby Constr. Co. v. Dallas Area Rapid Transit, 369 F.3d 464, 467 (5th Cir. 2004)). “To survive a Rule
12(b)(6) motion to dismiss, a complaint ‘does not need detailed factual allegations,’ but must
provide the [plaintiffs’] grounds for entitlement to relief—including factual allegations that when
assumed to be true ‘raise a right to relief above the speculative level.’” Cuvillier v. Taylor, 503 F.3d
397, 401 (5th Cir. 2007) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)). That is, “a
complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that is
plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Twombly, 550 U.S. at
570).
A claim has facial plausibility “when the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct alleged.”
Id. “The tenet that a court must accept as true all of the allegations contained in a complaint is
inapplicable to legal conclusions. Threadbare recitals of the elements of a cause of action,
supported by mere conclusory statements, do not suffice.” Id. Generally, a court ruling on a Rule
12(b)(6) motion may rely on the complaint, its proper attachments, “documents incorporated
into the complaint by reference, and matters of which a court may take judicial notice.” Dorsey v.
Portfolio Equities, Inc., 540 F.3d 333, 338 (5th Cir. 2008) (quoting Tellabs, Inc. v. Makor Issues &
Rights, Ltd., 551 U.S. 308, 322 (2007)).

4
20-50687.113

Case 1:19-cv-00668-RP Document 23 Filed 07/23/20 Page 5 of 12

III. ANALYSIS
“To establish a § 1983 claim for employment retaliation related to speech, a plaintiffemployee must show: (1) he suffered an adverse employment action; (2) he spoke as a citizen on
a matter of public concern; (3) his interest in the speech outweighs the government’s interest in
the efficient provision of public services; and (4) the speech precipitated the adverse employment
action.” Anderson v. Valdez, 845 F.3d 580, 590 (5th Cir. 2016). Defendants move to dismiss
Harrison’s complaint on the basis of the second element, contending that under Garcetti,
Harrison spoke as an employee rather than as a citizen, disqualifying her from First Amendment
protection. (Mot. Dismiss, Dkt. 15, at 5 (citing Garcetti v. Ceballos, 547 U.S. 410, 418 (2006))).
And, even if the Court finds that Harrison spoke as a citizen on a matter of public concern,
Defendants argue they are entitled to qualified immunity because it was not clearly established
that her speech constituted protected citizen speech at the time of her termination. (Id. at 8). The
Court begins its analysis with the threshold inquiry under Garcetti—whether Harrison’s speech
constituted citizen speech or employee speech.
For an employee’s speech to qualify for First Amendment protection, she must be
speaking “as a citizen on a matter of public concern.” Nixon v. City of Houston, 511 F.3d 494, 497
(5th Cir. 2007) (quoting Garcetti, 547 U.S. at 418). “An employee is not speaking as a citizen—but
rather in [her] role as an employee—when [she] ‘make[s] statements pursuant to [her] official
duties.’” Id. This distinction is pivotal because the First Amendment does not protect
“expressions made pursuant to [an employee’s] official duties,” “[e]ven if the speech is of great
social importance.” Williams v. Dallas Indep. Sch. Dist., 480 F.3d 689, 692 (5th Cir. 2007). Thus, the
Court must decide whether Harrison spoke as a citizen or pursuant to her duties as the TABC
Director of Licensing when she sent the conflict-of-interest email to Helm and Swedberg. See id.
(“Under Garcetti, we must shift our focus from the content of the speech to the role the speaker
occupied when he said it.”).

5
20-50687.114

Case 1:19-cv-00668-RP Document 23 Filed 07/23/20 Page 6 of 12

Defendants contend that Harrison’s speech “was mere internal workplace speech related
to her job duties as TABC’s Director of Licensing,” and is therefore not citizen speech entitled
to First Amendment protection under Garcetti. (Mot. Dismiss, Dkt. 15, at 1). Relying on Williams,
Defendants argue that even if providing conflicts checks was not strictly within Harrison’s
regular job duties, informing others about which entities held a TABC license was “part-andparcel” of her job as Director of Licensing. (Id. at 6 (citing Williams,480 F.3d at 694)). Thus, say
Defendants, Harrison spoke as an employee when she identified an overlap between Lilly’s stock
holdings and TABC licensees. (See id. at 6).
The Court agrees. Harrison has pleaded herself out of First Amendment protection
because her allegations establish that she sent the conflict-of-interest email to Helm and
Swedberg “in the course of performing [her] job as [Licensing Director].” Williams, 480 F.3d at
694; see also id. (“Activities undertaken in the course of performing one’s job are activities
pursuant to official duties.”). In Williams, the Fifth Circuit considered whether an internal
memorandum sent by a school athletic director to a school principal about the misuse of school
athletic funds constituted employee or citizen speech. 480 F.3d at 693. The athletic director’s
statements “focus[ed] on his daily operations,” were “part-and-parcel of his concerns about the
program he ran,” and “concerned matters immediately within [an] athletic director’s purview—
the use of funds for the school athletic teams and the related accounting procedures.” Id. at 693–
94; see also Cutler v. Stephen F. Austin State Univ., 767 F.3d 462, 472 (5th Cir. 2014) (discussing
Williams). While the athletic director was not required to write memoranda as part of his regular
job duties, the Fifth Circuit nevertheless found the memorandum was employee speech because
“[a]ctivities undertaken in the course of performing one’s job are activities pursuant to official
duties.” Williams, 480 F.3d at 693.
Here, Harrison’s email concerned the overlap between companies in Lilly’s stock
portfolio and companies holding TABC licenses, a matter “immediately within [a licensing
director’s] purview.” (See Am. Compl., Dkt. 13, at 3); Cutler, 767 F.3d at 472. In her role as

6
20-50687.115

Case 1:19-cv-00668-RP Document 23 Filed 07/23/20 Page 7 of 12

licensing director, Harrison’s job duties included “supervising and running the department in
TABC tasked with regulating which persons or entities are entitled to alcoholic beverage permits
in Texas.” (Am. Compl., Dkt. 13, at 6). After “compar[ing] the list sent by Chairman Lilly to
entities licensed by the TABC,” Harrison “discovered that there was an overlap between the
two” because knowing which entities hold TABC licenses is firmly “within the scope of a
[licensing director’s] duties.” (Id.); Anderson, 845 F.3d at 595. And when she emailed her concerns
about a potential conflict-of-interest to Helm and Swedberg, Harrison spoke with “special
knowledge” and “greater authority” than any other citizen because she oversaw the department
tasked with “regulating which persons or entities” received TABC permits. (Am. Compl., Dkt.
13, at 6); Williams, 480 F.3d at 694 (explaining that the athletic director wrote his memoranda
about athletic funding “with special knowledge” and from the perspective of an athletic director,
qualifying him to speak with greater authority than any other taxpayer).
Harrison argues that she did not speak pursuant to her official job duties because her
email “was not about licensing.” (Resp., Dkt. 16, at 5). Instead, Harrison contends “[t]he actual
content of the speech was regarding Lilly’s alleged violations,” which she characterizes as “only
tangentially related to licensure.” (Id. at 6). Moreover, Harrison states that “it was not in the
ordinary scope of [her] job to opine on whether the chairman was ineligible to serve.” (Id.).
In light of Williams, the Court finds Harrison’s attempt to disentangle the content of her
speech from her job as licensing director unpersuasive. Though Harrison argues, that “[w]hether
or not [Lilly] was potentially violating a conflict of interest statute has nothing to do with who
gets or keeps a TABC license,” and thus nothing to do with her job duties, she only “noticed
that a conflict of interest might exist” because she ran the TABC licensing department. (Id. at 5;
Am. Compl., Dkt. 13, at 3); see also Williams, 480 F.3d at 694. And when Harrison emailed her
concerns about the overlap between Lilly’s stock holdings and TABC licensees to Helm and
Swedberg—and raised those concerns with Lilly directly—she spoke from a perspective that
depended on and emanated from her role as TABC’s licensing director. Cf. Cutler, 767 F.3d at

7
20-50687.116

Case 1:19-cv-00668-RP Document 23 Filed 07/23/20 Page 8 of 12

473 (finding the employee spoke as a citizen because his concerns were “entirely unrelated to his
job and from a perspective that did not depend on his job as a university employee, but rather
emanated from his views as a citizen”).
Nevertheless, Harrison argues that she did not speak pursuant to her duties as licensing
director because she “went outside her chain of command and notified the TABC General
Counsel [Helm] regarding her concerns.” (Am. Compl., Dkt. 13, at 3; see also Resp., Dkt. 16, at 5
(“Not only was the TABC general counsel Emily Helm outside of [Harrison’s] ‘chain of
command,’ but the statements made were not made pursuant to her job duties.”)). But Harrison
copied Swedberg on the email to Helm, thus raising her concerns “up the chain of command” to
her direct supervisor. (Am. Compl., Dkt. 13, at 3); Davis v. McKinney, 518 F.3d 304, 313 (5th Cir.
2008). The Fifth Circuit has distinguished instances in which a public employee “raises
complaints or concerns up the chain of command at [her] workplace about [her] job duties”
from those in which the employee “takes [her] job concerns to persons outside the work place,”
explaining that the former is “speech undertaken in the course of performing [the employee’s]
job” while the latter external communications “are ordinarily not made as an employee, but as a
citizen.” Davis, 518 F.3d at 313. And while Helm, as general counsel, may have been outside
Harrison’s chain of command, Harrison never took her concerns “to persons outside the work
place”; instead, she raised all concerns internally, in response to a direct inquiry from Lilly, and
pursuant to her role as TABC’s licensing director. (See Am. Compl., Dkt. 13, at 3–4); see also
Davis, 518 F.3d at 315.
Harrison’s reliance on Charles v. Grief, 522 F.3d 508, 512 (5th Cir. 2008), is likewise
misplaced. In Charles, the Fifth Circuit found that a member of the Texas Lottery Commission
spoke as a citizen when he emailed members of the Texas Legislature as well as high-ranking
Lottery Commission officials raising concerns about racial discrimination and retaliation against
minority Lottery Commission-employees. Id.; see also Cutler, 767 F.3d at 472 (discussing Charles).
This conclusion hinged on the fact that the employee’s speech “was not made in the course of

8
20-50687.117

Case 1:19-cv-00668-RP Document 23 Filed 07/23/20 Page 9 of 12

performing or fulfilling his job responsibilities, was not even indirectly related to his job, and was
not made to higher-ups in his organization . . . but was communicated directly to elected
representatives of the people.” Charles, 522 F.3d at 514. Instead, the employee’s emails
“concerned topics far removed from the realm of—and unrelated to—any conceivable job
duties.” Id. Accordingly, there was “no Garcetti-like nexus between [the employee’s] work and the
malfeasance that he sought to expose to the cognizant public authorities.” Id. Harrison’s email,
by contrast, was sent only to “higher-ups” within her organization, including her direct
supervisor, and concerned the overlap between Lilly’s stock holdings and entities holding TABC
permits, hardly a topic “far removed from the realm of” her job duties as TABC licensing
director. Id.; (see also Am. Compl., Dkt. 13, at 3–4).
Finally, Harrison contends that if her speech is classified as a matter of public concern,
“Defendants are prohibited from terminating her for that speech.” (Am. Compl., Dkt. 16, at 2).
She then argues that “[t]here is perhaps no subset of ‘matters of public concern’ more important
than bringing official misconduct to light,” and her conflict-of-interest email did just that. (Id.).
But this argument puts the cart before the horse. Under Garcetti, the Court’s “first task” in
determining whether Harrison’s speech is constitutionally protected “is to determine whether
[Harrison’s] speech was part of her official duties, that is whether she spoke as a citizen or as
part of her public job.” Davis, 518 F.3d at 312; see also Charles, 522 F.3d at 512 (“Before
proceeding to examine the substance of [the employee’s] speech, we must first focus on his role
when he uttered it.”). Having found that Harrison spoke pursuant to her role as TABC licensing
director, her speech is unprotected employee speech under Garcetti and the Court need not
consider whether she spoke on a matter of public concern.
The Court ultimately finds that Harrison’s allegations show that her email was written in
the course of performing her job as TABC licensing director, disqualifying the speech within it
from First Amendment protection. Because Harrison fails to satisfy this threshold inquiry under

9
20-50687.118

Case 1:19-cv-00668-RP Document 23 Filed 07/23/20 Page 10 of 12

Garcetti, she has failed to state a claim for First Amendment retaliation and Defendants are
entitled to dismissal.1
IV. LEAVE TO AMEND
In her response, Harrison asks the Court to grant her leave to amend her complaint for a
second time in the event the Court finds her pleading insufficient. (Resp., Dkt. 16, at 9).
Defendants object to this request because Harrison has “already availed herself of the
opportunity to re-plead” and in making this request, Defendants argue Harrison “is effectively
asking the Court to issue an advisory opinion on where the problems in her pleading are, so that
she can fix them.” (Reply, Dkt. 17, at 3).
The Federal Rules of Civil Procedure permit a party to amend its pleading “once as a
matter of course,” but afterwards “only with the opposing party’s written consent or the court’s
leave.” Fed. R. Civ. P. 15(a)(1)–(2). “The court should freely give leave when justice so requires.”
Id. at (a)(2). Rule 15(a) “requires the trial court to grant leave to amend freely, and the language
of this rule evinces a bias in favor of granting leave to amend.” Lyn–Lea Travel Corp. v. Am.
Airlines, 283 F.3d 282, 286 (5th Cir. 2002). But leave to amend “is by no means automatic.” Davis
v. United States, 961 F.2d 53, 57 (5th Cir. 1991). A district court may deny leave to amend if it has
a “substantial reason” to do so. Lyn–Lea Travel Corp., 283 F.3d at 286.
Although the Fifth Circuit “has not provided strict guidelines as to what constitutes a
sufficient request for leave to amend, it is clear that some specificity is required.” Thomas v. Chevron
U.S.A., Inc., 832 F.3d 586, 590 (5th Cir. 2016) (citing U.S. ex rel. Doe v. Dow Chem. Co., 343 F.3d

Because the Court has concluded that Harrison’s claims should be dismissed under Rule 12(b)(6) for
failure to state a First Amendment retaliation claim, it does not reach Defendants’ qualified immunity
defense. See, e.g., Jackson v. United States, No. 4:15-CV-696-O, 2019 WL 974667, at *2 n.4 (N.D. Tex. Feb.
27, 2019) (granting motion to dismiss for failure to state a claim and accordingly not reaching the
qualified immunity arguments); Causer v. Ard, No. CV 18-779-SDD-RLB, 2019 WL 3849155, at *5 (M.D.
La. Aug. 15, 2019) (“The Court does not reach the qualified immunity analysis on this motion, because it
finds that all of Plaintiffs’ claims pursuant to 42 U.S.C. § 1983 shall be dismissed for failure to meet the
pleading standard required to survive a Rule 12(b)(6) motion to dismiss.”).
1

10
20-50687.119

Case 1:19-cv-00668-RP Document 23 Filed 07/23/20 Page 11 of 12

325, 331 (5th Cir. 2003)). For instance, the party requesting amendment must “set forth with
particularity the grounds for the amendment and the relief sought.” Doe, 343 F.3d at 331. And
while a formal motion requesting amendment is not required, a “bare request in an opposition to
a motion to dismiss—without any indication of the particular grounds on which the amendment
is sought, cf. Fed. Civ. R. P. 7(b)—does not constitute a motion within the contemplation of Rule
15(a).” Id.
Here, Harrison “requests leave to amend her complaint in order to allege further facts in
support of [her] complaint” “[i]n the event the Court . . . believes that additional facts are
necessary.” (Resp., Dkt. 16, at 9). “While this statement, in its loosest sense, is a request to
amend, it offers no grounds on which an amendment should be permitted.” Doe, 343 F.3d at
331. Harrison did not attach a proposed amended complaint to her response, and—in the nearly
eight months that Defendants’ motion to dismiss has been pending—she never filed a formal
motion requesting amendment. (See Resp., Dkt. 16, at 9; Mot. Dismiss, Dkt. 15 (filed October
18, 2019)). Most importantly, she has not suggested any additional facts that could bring her
speech within the ambit of citizen speech and cure the pleading defects raised by Defendants in
their motion to dismiss. (See Resp., Dkt. 16, at 9). Without a proposed amendment or proffered
grounds for why the Court should permit amendment, the Court will deny Harrison’s request.
See Goldstein v. MCI WorldCom, 340 F.3d 238, 254–55 (5th Cir. 2003) (affirming denial of motion
for leave to amend where the request merely stated: “Should this Court find that the Complaint
is insufficient in any way, however, plaintiffs respectfully request leave to amend.”).

11
20-50687.120

Case 1:19-cv-00668-RP Document 23 Filed 07/23/20 Page 12 of 12

IV. CONCLUSION
For the reasons stated, IT IS ORDERED that Defendants’ motion to dismiss, (Dkt.
15), is GRANTED. Harrison’s claims against Defendants are DISMISSED and her request for
leave to amend, (see Resp., Dkt. 16, at 9), is DENIED. The Court will enter final judgment in a
separate order.
SIGNED on July 23, 2020.
_____________________________________
ROBERT PITMAN
UNITED STATES DISTRICT JUDGE

12
20-50687.121

